No. 21-

In The

Supreme Court of the United States
AMA MULTIMEDIA, LLC,
Petitioner,
v.
MARCIN WANAT,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATION OF COMPLIANCE
WITH WORD LIMITATIONS
I, Marc J. Randazza, counsel for the Petitioner AMA Multimedia, LLC, hereby
certify that, according to the word-count tool in Microsoft Word, the Petition for a
Writ of Certiorari consists of 6,647 words, including footnotes and excluding the
sections enumerated by Rule 33.1(d). The Brief therefore complies with Rule 33.l(g).

Dated: April 8, 2021.

Marc J. Randazza

